APPENDIX

la
APPENDIX — OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT,
FILED JUNE 27, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10007
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JOHN DOE,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of Texas.
June 27, 2019, Filed
Before CLEMENT, GRAVES, and OLDHAM, Circuit
Judges.
ANDREW S. OLDHAM, Circuit Judge:
’ Pursuant to a prior order of this Court, we filed the following
opinion under seal on June 27, 2019. In a separate letter dated the
same day, we proposed unsealing the opinion and gave the parties
an opportunity to file objections. Defendant stated “no objection”
to unsealing the opinion so long as his name was redacted. Because

2a
Appendix
John Doe stole over $77 million from his employer.
He was sentenced to 25 years in prison. We affirmed
his sentence in 2007. In 2017, the government filed a
substantial-assistance motion under Federal Rule of
Criminal Procedure 35(b) and asked the district court
to reduce Doe’s sentence. The district court refused. We
affirm.
I.
From 1998 to 2005, John Doe defrauded his employer
of over $77 million. He pleaded guilty in 2006. Although
the Guidelines range for this fraud was 188 to 235 months,
the district court imposed a sentence of 300 months. The
district court gave a thorough explanation for its decision
to impose an above-Guidelines sentence. This passage
from the sentencing transcript provides a sense of the
district court’s rationale:
The defendant displayed a grandiose audacity
and arrogance in his exorbitant and extravagant
lifestyle lived at the expense of [his employer].
According to the file and from information really
provided by the defendant’s attorneys, the
defendant has purchased, among other assets,
over $1 million in watercraft, ranging in price
from $8,000 jet skiis to two $425,000 Fountain
we are sensitive to the security concerns raised by this particular
defendant, we have accepted the proposed redactions. It is therefore
ORDERED that this opinion is unsealed as redacted. The Court’s
prior seal order remains otherwise unaffected.

3a
Appendix
boats. He also purchased approximately 200
vehicles over an 8-year period for an estimated
total of $8 million[,] over thirty-five motorcycles,
all-terrain vehicles, dune buggies, and go-carts
for over $300,000. He purchased in excess of
ten aircraft for over $3,400,000. He purchased
many sports memorabilia for thousands of
dollars. He purchased three motor coaches for
an estimated $1,750,000. Mr. [Doe] purchased
many thousands of dollars’ worth of guns,
jewelry, furniture and artwork. And finally,
he purchased dozens of real estate holdings
worth many millions of dollars, including a
farm, a ranch, an airport, and multiple lake,
recreational, and mountain properties.
We affirmed the sentence on direct appeal.
In 2013, the government filed a Rule 35(b) motion
asking the district court to reduce Doe’s sentence based
on substantial assistance. The district court denied the
motion. Doe did not appeal that order.
In 2017, the government filed another Rule 35(b)
motion, which is the subject of this appeal. Because the
motion and Doe’s memorandum in support of it were filed
under seal, we will omit the details here.1 The district
1. Moments before his oral argument, and without notice to our
Court, Doe’s appellate counsel orally moved to close our courtroom.
The avowed purpose of this motion was to allow Doe’s counsel to
discuss the details of his client’s substantial assistance. Out of an
abundance of caution, we granted the motion—even though it meant

4a
Appendix
court denied the motion in a one-page order. It stated
in relevant part: “After careful consideration of the
arguments, the facts and circumstances of Defendant’s
offense conduct, along with the other factors found in 18
U.S.C. § 3553(a), the Court finds that said Motion should
be DENIED.” Doe timely appealed the denial.
II.
We first determine the basis of our jurisdiction. Our
cases have identified two bases for jurisdiction in appeals
like this one.
In 2017, we held that appellate jurisdiction over the
denial of a Rule 35(b) motion exists under 18 U.S.C.
§ 3742(a)(1). See United States v. McMahan, 872 F.3d 717,
718 (5th Cir. 2017). Section 3742(a)(1) in turn provides: “A
defendant may file a notice of appeal in the district court
for review of an otherwise final sentence if the sentence
. . . was imposed in violation of law.” It is not obvious
McMahan was correct. When the district court denies
a Rule 35(b) motion, it does not “impose[J” a sentence;
it declines to “impose[J” one. And the only authority
McMahan cited for finding § 3742 jurisdiction was a case
where the district court granted a Rule 35(b) motion and
hence did impose a sentence. See McMahan, 872 F.3d at
718 (citing United States v. Lightfoot, 724 F.3d 593, 595
(5th Cir. 2013)).
ejecting a group of law students. After furnishing the Court with a
written handout detailing that assistance, Doe’s counsel did not say
a single word about it during the argument.

v

5a
Appendix
In 2018, we found appellate jurisdiction under 28
U.S.C. § 1291 to review the denial of a similar sentencereduction motion. See United States v. Calton, 900 F.3d
706, 712-13 (5th Cir. 2018). In Calton, the defendant
moved the district court under 18 U.S.C. § 3582(c) to
reduce her sentence in light of a subsequent amendment
to the Guidelines. The district court denied the motion,
and Calton appealed. We reviewed the appeal under
§ 1291’s “general grant of jurisdiction” over the district
court’s “final decisions”—not the more specific grant of
jurisdiction in § 3742(a)(1). See Calton, 900 F.3d at 711,713.
We recognized that, where the latter applies, the appellant
cannot rely on the former’s “broad grant of jurisdiction
to circumvent [the latter’s more specific] statutory
restrictions on sentencing appeals.” Id. at 713 (quotation
omitted); see also Edmond v. United States, 520 U.S. 651,
657,117 S. Ct. 1573,137 L. Ed. 2d 917 (1997) (“Ordinarily,
where a specific provision conflicts with a general one, the
specific governs.”); Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts 183
(2012). But we held § 3742(a)(1) inapplicable because when
district courts deny sentence-reduction motions, “the
result is only final orders—not new sentences by any
definition.” Calton, 900 F.3d at 713 (quotation omitted).
McMahan answered the precise jurisdictional issue
before us, so we are bound to apply § 3742(a)(1) to review
the denial of Doe’s Rule 35(b) motion. Moreover, even if
we were persuaded by Calton, we could not follow it under
our rule of orderliness because it came later. See United
States v. Wheeler, 322 F.3d 823, 828 n.l (5th Cir. 2003)
(per curiam) (“Where two previous holdings or lines of

6a
Appendix
precedent conflict, the earlier opinion controls and is the
binding precedent in this circuit.” (alteration and quotation
omitted)).
Nor would it matter if we were persuaded by neither
McMahan nor Calton. For example, neither decision
considered whether jurisdiction should instead be confined
to 28 U.S.C. § 2255. Cf. Gonzalez v. Crosby, 545 U.S. 524,
531-32,125 S. Ct. 2641,162 L. Ed. 2d 480 (2005) (holding
state prisoners cannot avoid AEDPA’s jurisdictional
strictures by purporting to challenge their convictions or
sentences under the Federal Rules of Civil Procedure).
Nor did either decision consider whether appellate
jurisdiction should exist at all; both took for granted that
jurisdiction exists and then looked for its source. Whatever
the answers to these questions might be, their resolution
must wait for another day.2
2. Our circuit is not alone in being confounded by these issues.
The circuits disagree regarding whether § 3742 or § 1291 governs
Rule 35(b) decisions. Compare United States v. McMillan, 106 F.3d
322,324 n.4 (10th Cir. 1997) (concluding “jurisdiction to hear appeals
from the resolution of a Rule 35(b) motion is governed by 18 U.S.C.
§ 3742”), and United States v. Pridgen, 64 F.3d 147,149-50 (4th Cir.
1995) (similar), with United States v. McAndrews, 12 F.3d 273,277
(1st Cir. 1993) (“An order granting or denying a Rule 35(b) motion
is... a final decision for purposes of section 1291.”); see also United
States v. McDowell, 117 F.3d 974,977 n.3 (7th Cir. 1997) (reserving
the question of “the proper appellate treatment of outright denials
of Rule 35(b) motions”). They likewise disagree on whether § 3742 or
§ 1291 governs decisions regarding § 3582(c)(2) sentence-reduction
motions. Compare United States v. Colson, 573 F.3d 915,916 (9th Cir.
2009) (“We conclude that 18 U.S.C. § 3582(c)(2) sentence reduction
decisions are reviewable in their entirety for abuse of discretion
under 28 U.S.C. § 1291.”), with United States v. Bowers, 615 F.3d

7a
Appendix
III.
On the merits, Doe argues the district court’s onesentence denial of the government’s Rule 35(b) motion
somehow generated six appealable errors. We find none.
A.
Doe’s first, second, and fourth questions presented are
really one: whether the district court’s Rule 35(b) denial
was procedurally unreasonable. It was not.
1.
Doe is wrong that Rule 35(b) imposes rigid procedural
requirements on district courts. The rule says: “Upon
the government’s motion made more than one year
after sentencing, the court may reduce a sentence if the
defendant’s substantial assistance involved” certain kinds
of information. Fed. R. Crim. P. 35(b) (emphasis added).
The rule is entirely discretionary—if the district court
finds X, then it may do Y. Nothing in the rule requires
the district court to make a written finding of substantial
assistance (X) before exercising its discretion not to reduce
the sentence (Y). Cf United States v. Matovsky, 935 F.2d
719,722 (5th Cir. 1991) (declining, when “the guidelines set
forth no requirement that the district court make express
findings,... to create one”). Nothing in the rule requires
715, 722 (6th Cir. 2010) (“[0]ur jurisdiction to consider the appeal
of a § 3582(c)(2) determination, like our jurisdiction to consider the
appeal of a Rule 35(b) determination, must come from § 3742.”); see
also Colton, 900 F.3d at 712 (discussing the circuit split).

8a
Appendix
the district court to make its discretionary decision (Y)
without considering the sentencing factors in 18 U.S.C.
§ 3553(a). And nothing in the rule says the district court
must grant a reduction (Y) if it finds substantial assistance
(X). See United States v. Grant, 493 F.3d 464,467 (5th Cir.
2007) (explaining that “once the government moves for a
reduction in sentence, the sentencing court is not bound
by the government’s recommendation on whether or how
much to depart”). At the risk of belaboring the obvious,
“may” means may. See Scalia & Garner, supra, at 11215; Guilzon v. Comm’r, 985 F.2d 819, 823 (5th Cir. 1993).
Here the district court said it carefully considered
the government’s motion, Doe’s memorandum in support
of that motion, Doe’s offense conduct, and the sentencing
factors in § 3553(a). Then the district court exercised
its discretion to deny the motion. Nothing in Rule 35(b)
requires the district court to do anything more or less.
Doe says the district court should have done more—
namely, apply a “two-step process” to adjudicate the
Rule 35(b) motion. Doe argues step one is to determine
whether the defendant provided substantial assistance;
if the answer is yes, the motion must be granted. Then,
Doe says, step two is to consider the extent of the sentence
reduction. This argument has zero basis in Rule 35(b)’s
text. And it has zero basis in our precedent.
So Doe falls back to the decisions of our sister
circuits. He cites four decisions for the proposition that
it is reversible error for a district court not to explain
its answers to Rule 35(b)’s two steps before denying the

9a
Appendix
motion. See United States v. Katsman, 905 F.3d 672 (2d
Cir. 2018) (per curiam); United States v. Tadio, 663 F.3d
1042 (9th Cir. 2011); United States v. Clawson, 650 F.3d
530 (4th Cir. 2011); United States v. Grant, 636 F.3d 803
(6th Cir. 2011) (en banc). Again, Doe is wrong.
Three of these decisions involve district courts that
granted a Rule 35(b) reduction. See Tadio, 663 F.3d at
1044-45; Clawson, 650 F.3d at 534-35; Grant, 636 F.3d at
809. Where a district court grants a Rule 35(b) motion,
it obviously must first find substantial assistance. Rule
35(b)’s text explicitly says so: The motion can be granted
“if” and only “if” the defendant provided the specified
type of assistance. See Fed. R. Crim. R 35(b); Pepper v.
United States, 562 U.S. 476, 502 n.15, 131 S. Ct. 1229,
179 L. Ed. 2d 196 (2011) (“Rule 35(b) departures address
only postsentencing cooperation with the government,
not postsentencing rehabilitation generally, and thus
a defendant with nothing to offer the government can
gain no benefit from Rule 35(b)”). That is, substantial
assistance is a necessary condition for granting any relief
under Rule 35(b).
That says nothing about what if anything the district
court must do to deny a Rule 35(b) motion. Federal law
includes numerous multi-part tests; where one part
is unmet, relief must be denied. See, e.g., Pearson v.
Callahan, 555 U.S. 223, 236, 129 S. Ct. 808, 172 L. Ed.
2d 565 (2009) (“The judges of the district courts and the
courts of appeals should be permitted to exercise their
sound discretion in deciding which of the two prongs of the
qualified immunity analysis should be addressed first in

N

10a
Appendix
light of the circumstances in the particular case at hand.”);
Johnson v. United States, 520 U.S. 461,469-70,117 S. Ct.
1544,137 L. Ed. 2d 718 (1997) (skipping over prong three of
the plain-error standard because the claim failed at prong
four); Davis v. Dali. Area Rapid Transit, 383 F.3d 309,
318 (5th Cir. 2004) (assuming one step of the McDonnell
Douglas framework to decide the discrimination claim
on a later step). Doe cites no authority from any court to
suggest Rule 35(b) is somehow different.
Doe cites only one case involving a Rule 35(b)
denial—namely, the Second Circuit’s recent decision
in Katsman. In that case, the district court explained
“[t]he decision to reduce a sentence pursuant to a Rule
35(b) motion is discretionary.” 905 F.3d at 674. Then the
district court exercised its discretion to find (1) Katsman
provided substantial assistance, but (2) he did not deserve
a reduction in any event. See ibid. The Second Circuit
affirmed. Id. at 675. The fact that the district court in
that case chose to exercise its discretion by conducting
a two-step analysis says nothing about whether district
courts must do so in every case. And the fact that the
Second Circuit affirmed says nothing about whether it is
reversible error to explain less than the district court did
in Katsman. Doe cites no case from any court reversing
the denial of a Rule 35(b) motion for failing to follow his
proposed hyper-rigid, two-step test.
2.

Doe next argues the district court should have
done less—namely, ignore the sentencing factors in 18

/

11a
Appendix
U.S.C. § 3553(a). Again, nothing in the rule precludes
consideration of those factors. Nothing in our cases
precludes it. And nothing in our sister circuits’ cases
precludes it. See, e.g., Katsman, 905 F. 3d at 674 (allowing
consideration of the § 3553(a) factors to deny a Rule 35(b)
motion); United States v. Davis, 679 F.3d 190, 196-97
(4th Cir. 2012) (collecting cases). Doe’s best case is the
Sixth Circuit’s decision in Grant. That case limits some
of the factors the district court can consider in imposing
its new sentence after it grants a Rule 35(b) motion. See
636 F.3d at 817-18 (holding the district court can consider
“other factors” that overlap with § 3553(a) but should not
“mingl[e]” them with “the terminology of § 3553(a)”). But
Grant obviously did not decide what factors the district
court can consider in exercising its discretion to deny a
Rule 35(b) motion.
There is nothing procedurally unreasonable about
the way the district court denied the Rule 35(b) motion.
Because we conclude the district court did not err under
any standard of review, we need not resolve the parties’
dispute over whether our review is de novo or for plain
error. See Lightfoot, 724 F.3d at 596.
B.
Doe’s third, fifth, and sixth questions presented are
really one: whether the district court’s decision was so
substantively unreasonable that we should grant the Rule
35(b) motion on our own and remand to a new judge for
resentencing. Again, no.

12a
Appendix
Under § 3742(a)(1), we have jurisdiction only to
determine whether Doe’s sentence “was imposed in
violation of law.” “Section 3742 does not give this Court
jurisdiction to review any part of a discretionary sentencing
decision.” Davis, 679 F.3d at 194; accord United States v.
Manella, 86 F.3d 201, 203 (11th Cir. 1996) (per curiam)
(holding challenges to “the merits of the district court’s
Rule 35(b) determination” are unreviewable). We have at
least one decision that could be read as suggesting we have
jurisdiction to review Rule 35(b) denials for “gross abuse
of discretion.” See United States v. Sinclair, 1 F.3d 329,
330 & n.l (5th Cir. 1993) (per curiam) (“A district court’s
ruling under Rule 35 will be reversed only for illegality
or gross abuse of discretion.” (quotation omitted)). But
in Sinclair, we never stated the basis of our jurisdiction.
Nor did we square gross-abuse-of-discretion review with
the jurisdictional limit in § 3742(a)(1). Nor did we conduct
gross-abuse-of-discretion review to grant relief. See 1
F.3d at 330 (denying relief). It is therefore unclear how
much weight, if any, to afford that sentence in Sinclair.
See, e.g., Arbaugh v. Y&H Corp., 546 U.S. 500,511,126 S.
Ct. 1235,163 L. Ed. 2d 1097 (2006) (“We have described
such unrefined dispositions as drive-by jurisdictional
rulings that should be accorded no precedential effect on
the question whether the federal court had authority to
adjudicate the claim in suit.” (quotation omitted)). And in
all events, Doe has forfeited any potential argument that
a district court imposes a sentence “in violation of law”
under § 3742(a)(1) when it grossly abuses its discretion
in denying a Rule 35(b) motion. Doe argues only that his
post-sentence “cooperation was truly Herculean” and
“some of the most significant cooperation ever provided.”
He provides no support for those hyperbolic comparisons
to other, un-cited cases. But even if he did, Doe provides

13a
V

Appendix
no argument that “Herculean” cooperation transforms
the discretionary text of Rule 35(b) into a mandatory
sentence-reduction command. The argument is therefore
forfeited.
* * *

The district court’s judgment is AFFIRMED.

>

